supreme Court, U S
FILED

JUL 2 9 2021
No.

21-52^

OFFICE OF THE CLERK

In the

Supreme Court of the United States
BATASKI BAILEY., PRO SE.,
Petitioner,
v.
FAIR & WALKER UNIT OWNERS ASSOCIATION, INC.;
ACCESS MANAGEMENT GROUP, L.P.; and
EMPIRE PARKING SERVICES, INC.,
Respondents.

On Petition for a Writ of Certiorari to the
Supreme Court of Georgia

PETITION FOR A WRIT OF CERTIORARI

BATASKI BAILEY, PRO SE
238 WALKER ST. SW UNIT 36
ATLANTA, GEORGIA 30313
BATASKIB@GMAIL.COM
(404) 933-9014

|

QUESTIONS PRESENTED
1. Do intentional false statements made by an attorney in a
judicial proceeding violate the opposing party’s Fifth and
Fourteenth Amendment rights?
2. Can attorney’s fees be awarded to a party for the alleged
defamation of any attorney during a legal proceeding if
the statements alleged to be defamatory are in fact true?

2

PARTIES TO THE PROCEEDINGS
Pursuant to Rule 14.1(b), the following list identifies all of the
parties appearing both here, and before the Georgia Supreme
Court.
The petitioner here, and appellant below is Bataski Bailey, Pro
Se.
The respondents here, and appellees below are Fair & Walker
Unit Owners Association, Inc., Access Management Group, L.P.,
and Empire Parking Services, Inc.

3

Table of Contents
QUESTIONS PRESENTED_____________ ___________

2

PARTIES TO THE PROCEEDINGS_________________

3

TABLE OF AUTHORITIES______________ _________

5

PETITION FOR A WRIT OF CERTIORARI..................

6

OPINIONS BELOW............................. ................................

6

JURISDICTION....................................................................

6

CONSTITUTIONAL PROVISION INVOLVED.... .........

6

STATUTES INVOLVED......................................................

7

GA R BAR Rul E4-102, RPC Rule3 .3................................
i8u.s.c.a.§iooi(Wes'5..........................................
Ga. Co d Ann § 16-10-20 (We s'}.......................................

7
7
8
8

GA R BAR Rul e4-102, RPC Rul e8.4.........................
INTRODUCTION AND STATEMENT OF CASE.........

9

B.Fac tjalBac kg rjhd....................................................
C. Falsest ate m e nhisAttornieDanie llRusse ll
andAttornieLawrencBom enic.q...........................

10
11
11

REASONS FOR GRANTING THE PETITION________

20

CONCLUSION......................................................................

21

4

TABLE OF AUTHORITIES

CASES
In re Wilkinson. 284 Ga. 548, 668 S.E.2d 707 (2008).....................
Matter of Jefferson. 307 Ga. 50, 834 S.E.2d 73 (2019), cert, denied
sub nom. Jefferson v. Supreme Ct. of Georgia. 140 S. Ct. 1148,
206 L. Ed. 2d 202 (2020), reh’g denied. 140 S. Ct. 2637, 206 L.
Ed. 2d 515 (2020)..........................................................................

19

19

STATUTES
18 U.S.C.A.§ 1001 (West)..................
GA R BAR Rule 4-102, RPC Rule 3 3
GA R BAR Rule 4-102, RPC Rule 8.4
Ga. Code Ann. § 16-10-20 (West)......
O.C.G.A. 24-13-24...............................
O.C.G.A§ 16-10-70(a)...........................
OCGA 9-11-33(2)................................

5

7
7
8
8
16
10
17

PETITION FOR A WRIT OF CERTIORARI
Petitioner Bataski Bailey, Pro Se, respectfully petitions for
a writ of certiorari to review the judgment of the Georgia
Supreme Court in this case.
OPINIONS BELOW
Georgia Supreme Court (see A);
Court of Appeals of Georgia (see B); and
Fulton County Superior Court of Georgia (see C).
JURISDICTION
The judgment of the Supreme Court of Georiga was
entered on May 3, 2021.
This Court’s jurisdiction rests on 28 U.S.C. § 2101.

CONSTITUTIONAL PROVISION INVOLVED
The Fifth Amendment to the United States
Constitution provides:
No person shall be held to answer for a capital, or
otherwise infamous crime, unless on a presentment
or indictment of a Grand Jury, except in cases arising
in the land or naval forces, or in the Militia, when in
actual service in time of War or public danger; nor
shall any person be subject for the same offence to
be twice put in jeopardy of life or limb; nor shall be
compelled in any criminal case to be a witness
against himself, nor be deprived of life, liberty, or
property, without due process of law; nor shall
private property be taken for public use, without just
compensation.
6

The Fourteenth Amendment to the United States
Constitution provides:
No State shall make or enforce any law which
shall abridge the privileges or immunities of
citizens of the United States; nor shall any State
deprive any person of life, liberty, or property,
without due process of law; nor deny to any
person within its jurisdiction the equal protection
of the laws.

STATUTES INVOLVED
GA R BAR Rule 4-102, RPC Rule 3.3
(a) A lawyer shall not knowingly:
(1) make a false statement of material fact or law to a tribunal;

18 U.S.C.A. § 1001 (West)
(a) Except as otherwise provided in this section, whoever, in any
matter within the jurisdiction of the executive, legislative, or
judicial branch ofthe Government ofthe United States, knowingly
and willfully—
(1) falsifies, conceals, or covers up by any trick, scheme, or device
a material fact;
(2) makes any materially false, fictitious, or fraudulent statement
or representation; or
(3) makes or uses any false writing or document knowing the same
to contain any materially false, fictitious, or fraudulent statement
or entry;
shall be fined under this title, imprisoned not more than 5 years
or, if the offense involves international or domestic terrorism (as
defined in section 2331). imprisoned not more than 8 years, or
both. If the matter relates to an offense under chapter 109 A, 109B,
110, or 117, or section 1591. then the term of imprisonment
imposed under this section shall be not more than 8 years.
7

Ga. Code Ann. § 16-10-20 (West)
A person who knowingly and willfully falsifies, conceals, or
covers up by any trick, scheme, or device a material fact; makes a
false, fictitious, or fraudulent statement or representation; or
makes or uses any false writing or document, knowing the same
to contain any false, fictitious, or fraudulent statement or entry, in
any matter within the jurisdiction of any department or agency of
state government or of the government of any county, city, or
other political subdivision of this state shall, upon conviction
thereof, be punished by a fine of not more than $1,000.00 or by
imprisonment for not less than one nor more than five years, or
both.

GA R BAR Rule 4-102, RPC Rule 8.4
(а) It shall be a violation of the Georgia Rules of Professional
Conduct for a lawyer to:
(1) violate or knowingly attempt to violate the Georgia Rules of
Professional Conduct, knowingly assist or induce another to do
so, or do so through the acts of another;
(2) be convicted of a felony;
(3) be convicted of a misdemeanor involving moral turpitude
where the underlying conduct relates to the lawyer's fitness to
practice law;
(4) engage in professional conduct involving dishonesty, fraud,
deceit or misrepresentation;
(5) fail to pay any final judgment or rule absolute rendered against
such lawyer for money collected by him or her as a lawyer within
ten days after the time appointed in the order or judgment;
(б)(i) state an ability to influence improperly a government agency
or official by means that violate the Georgia Rules of Professional
Conduct or other law;
(ii) state an ability to achieve results by means that violate the
Georgia Rules of Professional Conduct or other law;
(iii) achieve results by means that violate the Georgia Rules of
Professional Conduct or other law;
(7) knowingly assist a judge or judicial officer in conduct that is a
violation of applicable rules ofjudicial conduct or other law; or

8

(8) commit a criminal act that relates to the lawyer's fitness to
practice law or reflects adversely on the lawyer's honesty,
trustworthiness or fitness as a lawyer, where the lawyer has
admitted in judicio, the commission of such act.
(b)(1) For purposes of this Rule, conviction shall include any of
the following accepted by a court, whether or not a sentence has
been imposed:
(1) a guilty plea;
(ii) a plea of nolo contendere;
(iii) a verdict of guilty; or
(iv) a verdict of guilty but mentally ill.
(2) The record of a conviction or disposition in any jurisdiction
based upon a guilty plea, a plea of nolo contendere, a verdict of
guilty, or a verdict of guilty but mentally ill, or upon the
imposition of first offender probation shall be conclusive evidence
of such conviction or disposition and shall be admissible in
proceedings under these disciplinary rules.
(c) This Rule shall not be construed to cause any infringement of
the existing inherent right of Georgia Superior Courts to suspend
and disbar lawyers from practice based upon a conviction of a
crime as specified in paragraphs (a)(1), (a)(2) and (a)(3) above.
(d) Rule 8.4(a)(1) does not apply to any of the Georgia Rules of
Professional Conduct for which there is no disciplinary penalty.
The maximum penalty for a violation of Rule 8.4(a)(1) is the
maximum penalty for the specific Rule violated. The maximum
penalty for a violation of Rule 8.4(a)(2) through (c) is disbarment.

INTRODUCTION AND STATEMENT OF CASE
The principle that is the glue of the United States of
America's judicial system is truthfulness by all parties that present
statements in a judicial proceeding. Without this truthfulness, the
process fails everyone involved especially those for which it was
designed to protect. The Fifth and Fourteenth Amendments’ both
protect a party’s right to due process which this Court has
determined means a fairness injudicial proceedings. As shown by
the recent alleged actions of a few attorneys, when there is a lack
9

of truthfulness by the very individuals who swore an oath protect
and uphold the constitution, it can create a fear- by the greater
public that the system is not one for the people as the founding
fathers intended. The case for which this petitioner petitions this
Court for a writ of certiorari highlights how the knowingly
intentional statements by an attorney can cause severe harm to the
opposing party. When such actions by an attorney are not
addressed, admonished, and penalized, the damage can shake the
judicial system to its core and lead to an erosion of its basic
principles.

B. Factual Background
The instant case originated from a dispute between the
Petitioner a townhome owner within the Fair & Walker
Community, in Atlanta, Georgia, and Respondents Fair & Walker
Unit Owners Association, Access Management Group, and
Empire Parking Services. During the course of the litigation and
in a judicial proceeding before the Honorable Judge Jane C.
Barwick of the Fulton County Superior Court, Attorney Danielle
Russell and Attorney Lawrence Domenico both knowingly and
intentionally made false statements to the court. Additionally,
Attorney Lawrence Domenico knowingly and intentionally made
false statements within filings presented to the court and to the
Petitioner in the course of litigation. The Petitioner contacted the
offending attorneys via email requesting they both correct their
false statements in the previous filings as well correct their false
statements to the court. The Respondent’s responded to the
Petitioner by filing their respective summary judgement motions
10

along with motions for sanctions against the Petitioner for
defamation, both of which were granted respectively. The
Petitioner was ordered to pay tens of thousands of dollars in
attorney’s fees as sanctions for describing the attorney’s actions
as “perjury or perjurious”. The Petitioner alerted the court of these
false oral and written statements and filings in the form of motion
for a new trial using the false statements and direct evidence
thereof as the basis for said motion. Despite clear evidence of false
statements made by Attorney Danielle Russell and Attorney
Lawrence Domenico which directly impacted the Petitioner’s
right to due process and fairness and on which the court’s decision
was based, the Petitioner’s motion for a new trial was denied. The
Petitioner timely filed an appeal with the Court of Appeals of
Georgia. The Petitioner’s appeal was denied by the Court of
Appeals of Georgia with no opinion rendered. The Petitioner
timely filed an appeal with the Supreme Court of Georgia. The
Petitioner’s appeal was denied by the Supreme Court of Georgia
with no opinion rendered.

C. False Statements by Attorney Danielle Russell
and Attorney Lawrence Domenico
In Respondent Empire Parking Services’ Motion for Sanctions,
the Respondent's allege the Petitioner defamed Respondent's
counsel or otherwise caused harm by indicting to the Respondents
through email correspondence, as well as to the court that the
Respondent's statements and filings violated laws and were
11

peijurious. The actions for which the Petitioner was accused was
well within the law as available remedies for actions deemed
unethical and illegal pursuant to O.C.G.A§ 16-10-70(a): (a) “A
person to whom a lawful oath or affirmation has been
administered commits the offense of perjury when, in a judicial
proceeding, he knowingly and willfully makes a false statement
material to the issue or point in question.”

Undisputed Facts:
1. Petitioner Bataski Bailey sent an email to Respondent Empire
Parking’s counsel Mr. Domenico on December 9,2018 indicating
he had information regarding an Empire Parking employee who
was involved in the assault of a citizen. The purpose of this
notification was to inform the Respondent the Petitioner believes
the person involved was also the person responsible for the illegal
booting actions which are the subject of this litigation and his
deposition testimony is discoverable.
2. On January 28, 2019 Respondent Empire Parking thorough its
counsel Mr. Domenico submitted interrogatories responses
indicating they were not aware of any employees involved in any
assaults on anyone.
12

Plaintiffs Request for Interrogatories #7
Please list any and all criminal allegations against defendant EPS
or its employees from January 1, 2012 through December 23,
2018.
Defendant Empire Parking Services Response:
None to this Defendant's knowledge.
3. On March 28, 2019 during the deposition of Mr. Schmeelk, CEO
of Empire Parking, Mr. Schmeelk indicated he was in fact aware
of an alleged assault by an Empire Parking employee and had been
aware prior to the filing of the interrogatories Deposition of
Chipper Schmeelk CEO of Empire Parking Services' on March
28. 2019
Q. Do you have any employees that are accused of a crime at
this time?
MR. DOMENICO: Objection. Is the
modifier at this time meaning current
employees, or a pending criminal matter?
MR. BAILEY: Both.
MR. DOMENICO: Objection, vague and
multiple parts.
THE WITNESS: Yes.
BY MR. BAILEY:
Q. Who are those employees?
A. It's one that I'm aware of. His name is
Alex Bland.
Q. How long have you been aware of
Mr. Bland's alleged criminal activity?
A. Shortly after the incident occurred.
Q. When was that?
A. The incident occurred on Thanksgiving
morning.
Q. Was that last year?
A. Correct.
Q. So 2018?
A. Correct.
4. On January 28, 2019 Respondent Empire Parking thorough its
13

counsel Mr. Domenico submitted interrogatories and discovery
requests responses indicating they were not in possession of
documents or materials responsive to the plaintiffs request for
production.

Plaintiffs Request for Interrogatories #4
If you know of the existence of any pictures, photographs, plats,
visual recorded images, diagrams or objects relative to the
occurrence, the Plaintiff’s physical condition, or the scene of the
occurrence, identify the substance of such recording and the
present custodian of each such item.
Defendant Empire Parking Services' Response:
None
Plaintiffs Request for Production of Document to Defendant
Empire Parking Services #5
All pictures, photographs, plats, visual recorded images, and
diagrams produced in conjunction with the subject of this
litigation.
Defendant Empire Parking Services1 Response:
None at this time
5. On March 28, 2019 during the deposition of Mr. Schmeelk, CEO
of Empire Parking, Mr. Schmeelk, indicated Empire Parking was
in possession of documents and materials requested in the
Respondent’s Requests for Interrogatories and production of
documents and those documents were in fact available to Mr....
Mr....also indicated he was in charge of daily operations of Empire
Parking Deposition of Chipper Schmeelk CEO of Empire Parking
Services* on March 28. 2019
14

Q: Would there be any documents, recordings
or pictures of any boots that was placed at 238
Walker Street from the period of January 1, 2015
through December 23, 2018?
A. There should be, yes.
Q. Would you have access to those?
A. We should.
Q. In that same interrogatory that was
submitted under documents to be produced, the
request was made for those documents.
Number five states, "All pictures,
photographs, plats, visual recorded images and
diagrams produced in conjunction with the subject
of this litigation," a request for documents.
Did you submit those with response to the
interrogatories?
A. No.
Q. Why not?
A. I don’t know.
6. On March 15,2019 Petitioner Bataski Bailey sent via email (to all
Respondent's counsel), US Mail (to those named in the subpoena)
and filed six (6) subpoenas via the trial Court's efile, including one
for Mr. Schmeelk, CEO of Empire Parking demanding his
presence at a hearing scheduled on March 19,2019 before the trial
Court.
7. On March 18, 2019 at 09:43am Mr. Domenico opened the filed
subpoena as shown by the Courts filing and service system.
8. On March 18, 2019 at 09:18am Attorney Adam C. Joffee counsel
for Respondents Fair & Walker and Access Management Group
15

as well as co-counsel to Attorney Danielle Russel also opened the
filed subpoenas which

include

subpoenas

to

corporate

representatives of Respondents Fair & Walker and Access
Management Group.
oorssEr-

3 GoToAssist

reiSeorchGA

vSfeFildGA

Show Me HowTo...

% Chat

Filing Description
6Subpoenas for March 19.2019 hearing
Accepted Date
3/18/2019 8:15 AM EST

Filing Status
Accepted

Lead Document
i, .File Name
I

Notice of Filing Subpoena.pdf

Description
NOTICE OF FILING

Download
Original File
Court Copy

Security

Public

eSenrfce Details
Status

Name

Firm

Served

Date Opened

Sent

Danielle E. Russell

Goodman McGuffey LLP

Yes

Not Opened

Sent

Danielle £. Russell

Goodman McGuffey LLP

Yes

Not Opened

Sent

Adam C. Joffe

Goodman McGuffey LLP

Yes

Not Opened

Sent

Adam C. Joffe

Goodman McGuffey LLP

Yes

3/18/2019 9:18 AM
EST

Sent

Christine A. Spath

Goodman McGuffey Lindsey &
Johnson, LLP

Yes

3/18/20192:21 PM
EST

Sent

Lawrence B. Domenico

Yes

3/18/2019 9:43 AM
EST

Sent

Wendy DERiLUS-JOSEPH

Yes

3/18/2019 8:20 AM
EST

Pankey & Horlock, LLC

9. On March 19, 2019 during the scheduled hearing Ms. Russell
(who was flanked by co-counsel Attorney Adam C. Joffee)
verbally indicated to the court their client had not been served with
a subpoena after articulating to the court the ways in which service
of a subpoena could occur including through counsel.

16

A -

lO.Also, on March 19, 2019 during the scheduled hearing Mr.
Domenico verbally indicated his client had not been served with
a subpoena despite hearing an articulation by Respondent Fair &
Walker's counsel Ms. Russell, stating one legal way of subpoena
service is through counsel.

Transcripts from March 19.2019 Motions Hearing before the trial
court.
MS. RUSSELL: YES, YOUR HONOR. OBVIOUSLY,
4 O.C.G.A. 24-13-24 GOVERNS THE SERVICE OF
5 SUBPOENAS, YOUR HONOR. I MEAN, IT SAYS A
6 SUBPOENA MAY B E SERVED BY THE SHERIFF, BY
HIS

7 OR HER DEPUTY, OR BY ANY OTHER PERSON NOT
8 LESS THAN 18 YEARS OF AGE. PROOF MAY BE
9 SHOWN BY RETURN OF CERTIFICATE ENDORSED ON
10 A COPY OF THE SUBPOENA. SUBPOENAS MAY ALSO
11 BE SERVED BY REGISTERED OR CERTIFIED MAIL OR
12 STATUTORY OVERNIGHT DELIVERY. IT ALSO SAYS,
13 SERVICE UPON A PARTY MAY BE MADE BY
SERVING
14 HIS OR HER COUNSEL OF RECORD.
MR. DOMENICO : YOUR HONOR, IF I MAY SPEAK
2 TO THAT. I fM LARRY DOMENICO. I REPRESENT
3 EMPIRE PARKING SERVICES. MY CLIENT IS — MY
4 CLIENT WAS ONE OF THE FOLKS MR. BAILEY HAS
5 SUPPOSEDLY SENT A SUBPOENA TO, BUT MY
CLIENT

6 HAS NOT BEEN SERVED WITH A SUBPOENA SO HE
IS
7 NOT HERE.
17

As shown by these excerpts from the court’s transcripts both
counsels for the Respondents knowingly and intentionally made
statements to the trial court each knew to be false as shown by the
trial Court's e-file service records.
OCGA 9-11-33(2):
(2) Each interrogatory shall be answered separately and fully in
writing under oath, unless it is objected to, in which event the
reasons for objection shall be stated in lieu of an answer. The
answers are to be signed by the person making them, and the
objections signed by the attorney making them.
OCGA 9-11-33(2) requires interrogatories be answered “under
oath”. In Respondent Empire Parking Service's interrogatories
Mr. Lawrence Domenico, counsel for Empire Parking Services
does not provide with his interrogatories a statement or affidavit
of who is answering these interrogatories thusly certifying that the
person answering the interrogatories is doing so based on personal
knowledge and while under oath. Because of this lack of affidavit
this Court must assume Mr. Domenico is answering these
interrogatories based on his personal knowledge as the signer of
said interrogatories.
To come close to the threshold necessary for sanctions in a
matter such as this, the appellee must first establish the statements
made either written or otherwise were not pexjurious. In addition,
18

the appellee must prove the actions by the appellant were meant
to harass or otherwise intentionally cause unnecessary harm to the
appellees.
Individually these peijurious statements may not rise to the
level of action by the court. Collectively however, these peijurious
statements represent intentional acts by Respondent Empire
Parking Services and its counsel, that is an affront to justice and
has deprived the appellant of his right to due process and fairness,
including that of discoverable information and documents. The
Petitioner was able to show conclusively several instances of
peijury by Respondent Empire Parking Services through its
counsel Lawrence Domenico. Yet, the trial court completely
ignored this indisputable evidence and failed to issue a ruling
based on precedent and a lawful finding of fact which justifies
such a decision. These failures by the trial court represent intrinsic
defects which do not appear on the face of the record or pleadings.
These actions by the Respondents directly impacted the
Petitioners right to due process as guaranteed by the Fifth and
Fourteenth Amendments.

19

REASONS FOR GRANTING THE PETITION
This petition should be granted because of the failure by the
Georgia Supreme Court and all lower courts to ensure the
Petitioner’s right to due process and fairness as assured by the
Fifth and Fourteenth Amendments to the Constitution of the
United States. This failure has deprived the Petitioner of property
and risks setting a dangerous precedent of the tolerance of
untruthfulness by attorneys in judicial proceedings. In the Matter
of Neil Lovett Wilkinson, the Supreme Court of Georgia opined
“the attorneys' actions in making false statements of material fact
in briefs filed in [the Court of Appeals], and in failing to correct
such statements after admitting that the statements were not true,
evidence a blatant and intolerable disrespect for [the Court of
Appeals].” In re Wilkinson. 284 Ga. 548, 668 S.E.2d 707 (2008).
Additionally, In the Matter of Sherri Jefferson, the Supreme Court
of Georgia used as its basis for disbarring Sherri Jefferson its
belief this attorney made false statements to a magistrate court.
Matter of Jefferson. 307 Ga. 50, 834 S.E.2d 73 (2019), cert.
denied sub nom. Jefferson v. Supreme Ct. of Georgia. 140 S. Ct.
1148,206 L. Ed. 2d 202 (2020), reh’g denied 140 S. Ct. 2637,206
L. Ed. 2d 515 (2020). In these two cases the Supreme Court of
Georgia has admonished attorneys for making false statements to
the court and for also failing to correct false statements even if the
false statements were made by an attorney’s colleague.
Recognizing false statements by attorneys is abhorrent, this Court
should likewise take action by addressing how this action directly
impacts the opposing party by violating its right to due process
20

and fairness as guaranteed by the constitution. Lastly, the
Petitioner in this matter was ordered by the trial court to pay the
attorney’s fees of the Respondents for no other reason than
showing the statements made by the aforementioned attorneys
were in fact knowingly and intentionally made, in fact false, and
made during judicial proceedings which violate established law.

CONCLUSION
The petition for a writ of certiorari should be granted.

Respectfully subisi

Batasjfrmiley, Pro Se*^
238 Walker St SW Unit 36
Atlanta, GA 30313
(404) 933-9014
bataskib@gmail.com
September 30, 2021.

21

